Before the Committee on Commerce,
Science, and Transportation
United States Senate
__________________________________________________________________

For Release on Delivery
Expected at
2:30 pm EDT
                          Title XI Loan
                          Guarantee Program
Thursday
June 5, 2003
CC-2003-116




                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation




_________________________________________________________________
Mr. Chairman, Senator Hollings, and Members of the Committee:

Thank you for the opportunity to share our views with you today on the Maritime
Administration’s Title XI Loan Guarantee Program (Program). Our comments reflect the
findings and recommendations of the audit report we issued this past March. We
undertook the audit as a result of the Chairman’s request to perform a comprehensive
review of the Title XI Program and to assess the impact of the American Classic Voyages
Co. (AMCV) bankruptcy filing on it.

Title XI of the Merchant Marine Act of 1936, as amended, established the Federal Ship
Financing Guarantee Program to assist private companies in obtaining financing for the
construction of ships or the modernization of U.S. shipyards. This Program authorizes
the Federal Government to guarantee full payment to the lender of the unpaid principal
and interest of a commercial debt obligation, with the Government holding a mortgage on
the equipment or facilities financed.

As you are aware, the demand for this audit was driven, in part, by the recent, unsettling
increase in defaulted loans in the Program that, while not as severe, seemed to echo the
problems of the late 1980s. Between 1985 and 1987, 129 defaults occurred in the
Program, and the Maritime Administration (MARAD) paid out approximately $2 billion
in guarantees.1 The Federal Credit Reform Act was enacted in 1990 to improve the
performance of Federal credit programs. The Act required more accurate measurements
of the costs of credit programs and established budgetary controls on loan programs,
including requiring appropriations to cover the estimated credit costs of a project prior to
the issuance of any approvals for financing. In the 5 years following implementation of
this Act (1993 through 1997), only three MARAD loans defaulted, totaling
approximately $12 million.

In the last 5 years (1998 to 2002), however, this improved performance has faltered.
Nine MARAD loans have defaulted, six of which have occurred since December 2001,
totaling approximately $490 million in payouts and $402 million in net payouts after
recoveries. The biggest impact came from the bankruptcy of AMCV. Defaulted loans to
AMCV represent 67 percent ($330 million) of the payouts and 78 percent ($313 million)
of the net payouts after recoveries. (See Table 1.)




1
    Unless otherwise indicated, all years are Federal fiscal years.
                Table 1 – Recent Payouts and Recoveries on Defaulted Loans
Date of     Year of                                Project/Vessel             Guaranteed          Paid-Out      Recovered
                            Company                                                                             Amount3
Default     Origin                                     Name                    Amount             Amount2
2/1998          1996   Surf Express, Inc.      FastCat Catamaran                $1,701,000         $1,788,854      $100,000
                                               Shipyard
2/2000          1997   MHI, Inc.                                                55,000,000         59,071,658    24,108,619
                                               Modernization
                                               4 Moses-Class
3/2001          1995   SEAREX, Inc.                                             77,269,000         78,099,782    25,405,708
                                               Vessels
                                               Project America 1
12/2001         1999   AMCV                                                    185,000,000        187,317,445      7,425,416
                                               Cruise Ship
12/2001         2000   AMCV                    Cape Cod Light                   38,500,000         40,376,340      8,264,783
12/2001         2000   AMCV                    Cape May Light                   37,900,000         39,769,997        703,947
1/2002          1995   AMCV                    SS Independence                  33,334,000         25,185,531               0
1/2002          2001   AMCV                    Columbia Queen                   35,471,000         37,007,570               0
                       Friede Goldman          Shipyard
3/2002          1997                                                            24,817,000         20,884,647    21,300,000
                       Offshore                Modernization
Source: MARAD
                                   Totals through January 2003:               $488,992,000      $489,501,824    $87,308,473

 At the time of its bankruptcy, AMCV accounted for $1.3 billion (over one-quarter) of
 MARAD’s total $4.9 billion Title XI loan guarantee portfolio. This $4.9 billion consisted
 of $3.1 billion in executed loan guarantees and $1.8 billion of loan guarantee
 commitments.4 Of the $1.3 billion in loan guarantees and commitments to AMCV,
 $368 million (original amount) was for guarantees, which have since defaulted, and
 $895 million was for commitments.
                                        Figure 1 - MARAD's Title XI Portfolio
                                                            ($ in millions)
                                           Other
                                        Commitments
                                           $916




                                                                                             Other
                                                                                           Guarantees
                               Commitments
                                                                                            $2,772
                                 to AMCV
                                   $895



                                            Guarantees to
                                               AMCV
                                                $368


 2
     These amounts include accrued, unpaid interest as well as the outstanding principal.
 3
     These amounts include recoveries from escrowed funds (as of January 2003).
 4
     Executed loan guarantees are legal obligations (by MARAD) to pay off the debt if an applicant defaults on a loan. Loan
     guarantee commitments are legal agreements, stated in a commitment letter, stipulating that MARAD will issue a loan
     guarantee for the project if the applicant fulfills agreed-upon terms and there are no material changes in circumstances.

                                                                                                                            2
These losses have generated both public and congressional concerns regarding whether
the Program is adequately protecting the Government’s financial interests. Concerns also
exist regarding the potential for additional defaults and losses to the Government, given
the uncertain financial status of some of the companies with guaranteed loans. Our audit
identified a number of areas where MARAD could improve its Program practices, limit
the risk of default, and reduce losses to the Government. We also identified steps that
MARAD can take to significantly improve the Program, including the use of
compensatory loan provisions to reduce risk, improved loan application review
procedures, more rigorous financial oversight of borrowers during the term of loan
guarantees, better monitoring and protection of vessels and shipyards while under a
guarantee, and more effective stewardship of assets acquired through foreclosures.

MARAD should require a rigorous analysis of the risks that arise from modifying
loan approval criteria and, to mitigate those risks, should impose compensating
provisions on the loan guarantee such as more collateral or higher equity
contributions from the borrower. MARAD routinely modifies financial requirements
in order to qualify applicants for loan guarantees. Such modifications increase the risk of
the loan guarantee to the Government, and MARAD should impose stricter compensating
loan provisions and covenants on borrowers to mitigate those risks. All nine of the loans
that have gone into default since 1998 were approved with modifications to some of the
financial criteria. For example, the Project America loan guarantee included a waiver of
the working capital requirement. MARAD secured a parent company guarantee from
AMCV, but it was not backed by any unencumbered assets.

MARAD should establish an external review process as a check on its internal loan
application review and as assistance in crafting prudent loan conditions and
covenants. MARAD currently assesses loan guarantee applications primarily with its
own staff, but it would benefit from the use of an additional external review using
contract resources that are fully reimbursed by the borrower. Such reviews would
provide additional, credible information for loan guarantee approval or denial and would
assist in devising loan packages that reduce the risks to the Government. These external
reviews should include at least four elements: an assessment of the borrower’s business
plan, an evaluation of the borrower’s credit risk, an assessment of the value of collateral,
and a summary analysis that includes a recommendation on whether to approve the loan
guarantee and on what terms. The Export-Import Bank of the United States uses a
similar approach in its loan guarantee program.

MARAD should establish a formal process for continuously monitoring the
financial condition of borrowers, including requirements for financial reporting
over the term of the guarantee as a condition of loan approval. MARAD does not
closely monitor the financial health of its borrowers; rather, it tends to be reactive to loan
problems after they occur. Yet, firms rarely find themselves forced to default on loans
without many preceding quarters of financial results that indicate developing financial

                                                                                            3
distress. For example, AMCV’s stock price was on a downward trend for nearly 2 years
before its bankruptcy, and its net income declined continuously over 4 years from 1997 to
2000, from a positive $2.4 million to a negative $10.1 million. To become more
proactive, MARAD loan guarantees should include stronger financial covenants on its
borrowers’ required financial performance and condition, and enhanced self-help
measures should those covenants be violated. Most importantly, MARAD needs to
maintain rigorous financial scrutiny of its borrowers to ensure these covenants are met
and vigorous enforcement of its self-help prerogatives if they are not.

MARAD should establish a formal process for continuously monitoring the physical
condition of guaranteed assets over the terms of loan guarantees, and institute an
improved process for monitoring the physical condition of foreclosed assets to
ensure the Government recovers the maximum amount of funds from their disposal.
MARAD does not closely monitor the physical condition of the vessels and property
financed with guaranteed loans either during the loan period or after foreclosures. If
borrowers experience financial difficulties, they may be inclined to under-maintain assets
constructed with loan guarantees. MARAD staff conduct site visits on guaranteed
vessels or property only on an episodic basis, usually in response to problems identified
by borrowers or third parties. For example, at the time of AMCV’s impending
bankruptcy, MARAD officials we spoke with were not fully aware of the current
condition and status of four of the five vessels whose loans ultimately defaulted.
Regular, periodic inspections, particularly of those assets operated by firms in financial
difficulty as identified by financial monitoring, would better ensure the value of assets to
the Government.

MARAD has acknowledged that it needs to improve administration and
oversight in all phases of the Title XI loan process. MARAD agreed with our
five recommendations for improving oversight and is working to put these
recommendations into practice. Specifically, MARAD has committed to tightening the
controls over the approval and monitoring of loan guarantees and to taking more timely
action to recover the maximum amount possible from foreclosed assets in the event of
loan defaults.

MARAD’s response to our audit report indicates that, in a number of instances where
defaults have occurred, it has been due to political pressures to approve loan guarantees
by overlooking underwriting requirements. Nevertheless, implementation of our
recommendations regarding application review, both internal and external, should
improve the credibility of MARAD’s denial decisions when underwriting requirements
are not met. In cases where the application is approved, our recommendations regarding
protective covenants, financial monitoring, and asset monitoring should reduce the risk
and size of losses to the Government.



                                                                                          4
The Office of Inspector General must certify that our recommendations have been
implemented.      Public Law 108-11, Making Emergency Wartime Supplemental
Appropriations for the Fiscal Year Ending September 30, 2003, appropriated $25 million
to MARAD for new loan guarantees. According to MARAD, based on average risk
premiums, these funds would likely guarantee loans with a face value of about
$400 million and are available for obligation until September 30, 2005. Before these
funds can be obligated, the law mandates that MARAD implement the recommendations
in our report and that we certify to the Congress that our recommendations have been
met.

We are working with MARAD to analyze the new processes that it has proposed putting
in place to meet the intent of our recommendations, and we will audit MARAD’s
compliance with the new processes once they are in use. We think it is important that
these processes are not merely plans, but that they are in place, are being observed, and
are working before we certify compliance. In this regard, some recommendations, such
as those relating to compensating covenants in new guarantees, can only be verified after
new loan guarantees are executed. Therefore, we may need to “certify in principle” that
these recommendations have been implemented and then follow up with additional
verification once the $25 million has been released.

Background

Title XI of the Merchant Marine Act of 1936, as amended, established the Federal Ship

Financing Guarantee Program to assist private companies in obtaining financing for the

construction of ships or the modernization of U.S. shipyards. This Program authorizes

the Federal Government to guarantee full payment to the lender of the unpaid principal

and interest of a mortgage in the event of default by a vessel or shipyard owner. Title XI

was amended in 1972 to provide Government guarantees to commercial debt obligations,

with the Government holding a mortgage on the equipment or facilities financed.



Regulations implementing the Merchant Marine Act of 1936 [Title 46 Code of Federal

Regulations (CFR) Section 298] outline the application process for Title XI loan

guarantees and require MARAD to assess the economic feasibility and the financial

                                                                                        5
viability of an applicant’s project. Upon approval of an application, MARAD agrees to

guarantee these obligations with the full faith and credit of the U.S. Government through

a commitment letter to the applicant. The applicant must provide at least 12.5 percent to

25 percent (depending on project use) of the project’s estimated cost as equity, and a

commercial financial institution issues obligations for the remainder.5



Applicants generally receive more favorable loan terms than are available in the

commercial market without a guarantee. The Program has contributed to preserving a

U.S. commercial fleet and modernizing U.S. shipyards. Vessels financed using loan

guarantees include double-hull oil tankers, passenger ferries, cruise ships, and offshore

drilling rigs. Shipyard modernizations have included capital improvement projects at

shipyards located on the east, gulf, and west coasts.



As of December 31, 2002, MARAD’s Title XI portfolio totaled approximately

$4.3 billion, consisting of $3.4 billion in executed loan guarantees (formal agreements to

issue obligations) and $849 million of loan guarantee commitments (formal offers for

guarantees). The $3.4 billion in executed loan guarantees represents 103 projects for

818 vessels and 4 shipyard modernizations.                              Included in the Title XI portfolio are

eight projects totaling about $226 million in commitments that MARAD approved in




5
    These are bonds, notes, debentures or other evidence of indebtedness.


                                                                                                            6
2002. As of December 31, 2002, MARAD had 26 pending applications that requested

about $5.7 billion of Title XI financing.



MARAD Could Reduce the Risk of Losses Through Compensatory Loan Provisions

Such as More Collateral and Higher Equity Contributions



MARAD currently assesses loan guarantee applications primarily with its own staff using

financial criteria in regulations adopted from the Merchant Marine Act of 1936, as

amended.6 Routinely, however, MARAD modifies these financial requirements to allow

applicants to qualify for loan guarantees, and these modifications lead to increased risk of

loss. All nine of the loans that have gone into default since 1998 were approved with

modifications to some of the financial criteria. For example, the Project America loan

guarantee included a waiver of the working capital requirement.7 Other applicants had

long-term debt-to-equity ratios of more than the 2 to 1 permitted in the regulations. In

fact, one active project, approved for a loan guarantee of over $15 million, had a debt-to-

equity ratio of more than 4 to 1.



Although MARAD’s regulations permit modifications and they may be appropriate in

some cases, MARAD should impose compensating conditions on the borrower to offset


6
    46 CFR 298.13
7
    Working capital is the difference between a company's short-term assets (such as cash, marketable securities, accounts
    receivable, and inventories of raw materials and finished goods) and liabilities (accounts payable, short-term loans, and the
    current portion of long-term debt). Working capital roughly measures a company's potential reservoir of cash to maintain its
    solvency if unforeseen circumstances arise.

                                                                                                                               7
the increased risk to the Government. This is particularly true because vessels under

construction may have little or no value if the vessel is incomplete at the time of default.

For example, the hull and materials for a vessel being built for Project America, Inc., a

subsidiary of AMCV, and guaranteed by MARAD for $185 million, were recently sold

by the shipyard, with MARAD recovering only $2 million. This subsidiary had no assets

beyond the guaranteed vessel, as in all six of the loans to AMCV subsidiaries.



MARAD often accepts parent company guarantees of loan repayment for a subsidiary

that either cannot qualify for a loan guarantee on its own or cannot qualify without

modifications to the loan criteria. In 50 percent of the projects we examined (21 of 42),

the applicants could not independently qualify for a loan guarantee, had few or no assets

to offer as collateral, and provided a parent company guarantee as the sole form of

security. When these parent company guarantees are general pledges by the company to

honor the loan commitment and do not specifically pledge unencumbered assets as

collateral, these guarantees provide no real security if the parent company itself is not

creditworthy or has few unencumbered assets, as was the case in six of nine recent

defaults.



MARAD can prevent this problem by requiring parent company pledges to be backed by

liens on other unencumbered assets, requiring greater amounts of project equity from the

applicants, or having a greater portion of the risk assumed by the applicant’s lender. This

approach should be feasible because many Title XI applicants are subsidiaries of parent

                                                                                          8
companies that have other assets and financial resources.         For example, MARAD

approved a loan guarantee for over $150 million to a company for an oil-drilling unit

without requiring a lien on other assets, yet the company had a number of other

unencumbered assets it could have used to secure the guarantee.



MARAD Would Benefit From External Review of Applications



MARAD primarily conducts in-house reviews of applications and does not routinely

obtain independent assessments of proposed projects to determine if they are

economically and financially sound. MARAD officials have acknowledged a lack of in-

house expertise to review projects that employ new technologies, are financially

complex, or are high-cost.     Independent assessments of such projects would assist

MARAD in its internal analysis and reduce the risk of default and loss to the

Government. MARAD officials noted that a current application for about $750 million in

loan guarantees for two high-speed container vessels is being reviewed by an outside firm

due to the ships’ cost, the use of new technology, and the start-up nature of the company.



Independent external reviews should be paid for by borrowers and should encompass four

elements: an assessment of the borrower’s business plan; an evaluation of its credit risk;

an independent assessor’s analysis of the current market value of collateral and any

encumbrances; and an independent summary analysis of the loan guarantee application

that includes a recommendation on whether to approve the loan and on what terms.

                                                                                             9
The Export-Import Bank of the United States (Bank), which operates a loan guarantee

program, uses such external review. For projects with financial transactions that exceed

$30 million, the Bank hires outside independent financial, legal, and technical advisors.

After the Bank selects the advisor, the applicant is required to pay an evaluation fee and

execute a contract with the advisor. The Bank uses the advisor’s report as part of the

evaluation package to determine if a loan guarantee will be made.



MARAD Could Better Protect Its Interests Through Improved Oversight of

Borrowers Over the Duration of Their Loans



MARAD does not closely monitor the financial health of its borrowers over the term of

its loan guarantees. Currently, borrowers submit annual audited financial statements to

MARAD as well as selected financial information on a semi-annual basis. Although

MARAD has the authority to require additional financial information, examine and audit

the books and records pertaining to a project, and assess vessels, MARAD typically does

not take these additional steps.       MARAD does record loan payments, obtain

documentation of insurance coverage, and monitor the portfolio for delinquent accounts.

Although MARAD maintains communications with lenders, insurance companies, and

loan guarantee recipients, MARAD has no established procedures or policies to perform

periodic reviews of a company’s financial well-being once a loan guarantee is approved.



                                                                                       10
Firms rarely enter into bankruptcy or default on guaranteed loans without many

preceding quarters or years of financial results that indicate developing financial distress.

For example, AMCV’s stock price fell from $35.00 a share in December 1999 to less

than $0.50 before its bankruptcy filing in October 2001, as shown in Figure 2.



                                   Figure 2 - AMCV Financial Events
               $40                      Project America             2 Cape Light V essels,                Columbia Queen,
                                        I & II, Cost : $1.2 Billion Cost : $8 9 .5 M illion               Cost $4 2 .1 M illion
               $35                                                                     M S Pat riot ,                    At t acks of
                                                                                       Cost : $114 .5 M illion           Sept 11
               $30
                                                                                                                          Files
                                                                                                                          Chapt er 11
               $25
     Stock
    Closing    $20                                                                                                        Project
     Price
                                                                                                                          America Sold
               $15                                                                                                        f or $2 M illion

               $10
                $5             Net Income:             Net Income:            Net Income:            Net Income:
                               $2.43 million           $157,000               - $1.75 million        - $10.1 million
                $0
              Ju 8




              Ju 9




              Ju 0




              Ju 1




              Ju 2
              M 7



              Se 8



              M 8



              Se 9



              M 9



              Se 0



              M 0



              Se 1



              M 1


                   02
              De 7




              De 8




              De 9




              De 0




              De 1
                   -9




                   -9




                   -0




                   -0




                   -0
                   9
                 c-9



                   9

                   9
                 c-9



                   9

                   9
                 c-9



                   0

                   0
                 c-0



                   0

                   0
                 c-0
                 n-




                 n-




                 n-




                 n-




                 n-
                p-




                p-




                p-




                p-




                p-
               ar




               ar




               ar




               ar




               ar
              Se




   Source: MARAD & Securities and Exchange Commission Filings




Furthermore, AMCV’s filings with the Securities and Exchange Commission show a

marked decrease in net income from December 1997 to December 2000. In spite of

AMCV’s declining net income and stock valuation, MARAD continued to approve loan

guarantees to AMCV for $76 million for the two Cape Light ships, and over $35 million

for the Columbia Queen.                       Just prior to AMCV’s bankruptcy filing, MARAD was

considering a disbursement from AMCV’s Project America I escrow account to fund

further construction of this vessel.



                                                                                                                                             11
Increased financial monitoring is only useful if MARAD also includes stronger financial

covenants in its loan guarantee commitments. These covenants should prescribe the

required financial performance and condition of its borrowers as well as enhanced self-

help measures to which MARAD is entitled should those provisions be violated.

Performance targets could include higher minimum working capital levels, cash flow

requirements, minimum financial ratios, future capital spending constraints, and timely

financial reporting. Self-help measures might include the ability to require additional

reserves or collateral, declare defaults, take possession of existing collateral, and

repossess the guaranteed asset. By having the right to invoke these measures earlier,

when firms begin to experience financial distress, MARAD may be able to limit its losses

by avoiding additional commitments and acquiring existing assets before they are

dissipated by a failing firm.



MARAD Could Improve Its Return on Foreclosed Assets Through Better Tracking

of the Vessels and Property Constructed With Loan Guarantees



MARAD does not closely monitor the physical condition of the assets produced with the

guaranteed loans over the term of its loan guarantees. MARAD relies on annual Coast

Guard inspections and third-party notices such as those from insurance underwriters.

MARAD’s field offices conducted site visits on guaranteed vessels or property only in

response to problems or notices of potential problems from third parties or from



                                                                                     12
borrowers. Third-party notices do not necessarily ensure that the value of the asset is

maintained at a level commensurate with the remaining loan balance.



MARAD also does not adequately monitor and protect assets after loan defaults occur. At

the time of AMCV’s impending bankruptcy, MARAD officials we spoke with were not

fully aware of the current condition and status of several vessels whose loans ultimately

defaulted (totaling about $330 million).    Furthermore, MARAD does not adequately

manage assets acquired from foreclosure. There are no set timeframes or procedures to

maximize recovery of funds from defaulted loans. Thus, vessels and equipment may

deteriorate due to exposure, vandalism, and neglect, diminishing their value and potential

return.



For example, in 1998, MARAD paid out approximately $1.8 million for a default on a

vessel owned by Surf Express. The initial appraisal valued the 3-year-old vessel at only

$793,000, and MARAD advertised it for sale several times, but rejected the bids in an

attempt to recover more money. Meanwhile, MARAD stored the vessel in a wet-berth

where it was exposed to the elements, including Hurricane Georges. When MARAD

finally found a prospective buyer, the bidder rejected the vessel because of seized up

engines and general deterioration due to exposure to tropical weather and the hurricane.

As a result, MARAD recovered only $100,000 from the sale.




                                                                                       13
To better protect the Government’s interest in the assets that are collateral for its loan

guarantees, MARAD needs to periodically inspect such assets, particularly those operated

by firms that MARAD’s financial monitoring identifies as experiencing financial

difficulties. Likewise, when MARAD forecloses on assets after loan default, it could

increase the return to the Government on them by better managing these assets to ensure

they are maintained in good condition.



AMCV’s Bankruptcy Significantly Affected the Title XI Program but Does Not

Threaten Its Solvency



AMCV’s bankruptcy affected over one-quarter of the value of MARAD’s Title XI

portfolio. With MARAD’s approval of the last (sixth) guarantee application in May 2001,

for the vessel Columbia Queen, AMCV had received loan commitments of about

$1.3 billion covering seven vessels—potentially the largest amount of loan guarantees

issued to an affiliated group of entities in the history of the Program. However, only

$391 million in guarantees had actually been signed when AMCV filed for bankruptcy

protection and ceased operations on October 19, 2001. AMCV defaulted on five loans

and cost the Government almost $330 million in guaranteed payouts. See Table 2 for a

description of the AMCV loan guarantees.




                                                                                       14
                           Table 2 – MARAD’s Liability for AMCV Vessels
                                       as of December 2002

 Date of         Date                       Parent         Project or     Cost of Vessel   Guaranteed      Paid-Out         Disposition/
 Origin       of Default     Applicant     Company8       Vessel Name       to Owner        Amount         Amount            Recovery9
                           Great Pacific   Delta Queen
May           January      NW Cruise       Steamboat     Columbia                                                         Maintained by
2001          2002         Line, L.L.C.    Co.           Queen             $42,140,568      $35,471,000    $37,007,570    MARAD
                                           Delta Queen
                                           Coastal
March         December     Coastal Queen   Voyages,                                                                       Maintained by
2000          2001         West, L.L.C.    L.L.C.        Cape May Light     44,950,728       37,900,000     39,769,997    MARAD
                                           Delta Queen
                                           Coastal
March         December     Coastal Queen   Voyages,                                                                       Maintained by
2000          2001         East, L.L.C.    L.L.C.        Cape Cod Light     44,582,720       38,500,000     40,376,340    MARAD
                           Project         Project       Project
April         December     America Ship    America,      America                                                          Recovered
1999          2001         I, Inc.         Inc.          Vessel I          610,797,578      185,000,000    187,317,445    $2 million
                           Project         Project       Project                                                          Part of the
April                      America Ship    America,      America                                                          $2 million
1999          n/a          II, Inc.        Inc.          Vessel II         622,946,837               0                0   recovery above
                                           Great
                           Great           Hawaiian
November January           Independence    Cruise        S.S.                                                             Maintained by
1995     2002              Ship Co.        Lines, Inc.   Independence       44,774,271       33,334,000     25,185,531    MARAD
                           Great
                           American
                           Queen           Delta Queen                                                                    Full recovery-
July                       Steamboat,      Steamboat     American                                                         refinanced to
1995          n/a          L.L.C.          Co.           Queen              69,424,647       60,746,000               0   new owner
Source: MARAD
                                                                                Totals:    $390,951,000   $329,656,883


  The circumstances surrounding AMCV’s loan approvals and defaults illustrate the

  problems identified above. Specifically, modifications to loan approval criteria were

  made without compensating collateral, and parent company guarantees were accepted

  without liens on specific assets of the parent companies. Close financial monitoring of

  AMCV did not occur over the terms of the loans before default, and neither did close

  monitoring of the foreclosed assets.                         Had our recommended Program revisions and



  8
        AMCV is the parent company to Delta Queen Steamboat Co. and AMCV Holdings, Inc. Delta Queen Steamboat Co., in turn,
        is the parent company of Delta Queen Coastal Voyages, L.L.C. AMCV Holdings, Inc., is the parent company of Project
        America, Inc., and Great Hawaiian Cruise Lines, Inc. Applicants are subsidiaries of Delta Queen Steamboat Co.; Delta Queen
        Coastal Voyages, L.L.C.; Project America, Inc.; and Great Hawaiian Cruise Lines, Inc.
  9
        These amounts do not include recoveries from escrowed funds.

                                                                                                                                   15
protections been in place at the time of AMCV’s loan application, the losses to the

Government would likely have been much less.



For each of the six loan approvals, MARAD cited the Secretary of Transportation’s

authority to waive or modify the financial terms or requirements otherwise applicable,

upon determining that there was adequate security for the Title XI guarantees. However,

prudent financial analysis of AMCV as a whole would have highlighted the great risk of

default and should have prompted MARAD to require more collateral or stricter

covenants to protect the Government’s interest. Of the 10 vessels owned and operated

by, or under construction by, the AMCV group, 7 vessels were supported by loan

guarantees.   The other three vessels were encumbered with debt from commercial

banking facilities. Thus the only collateral available to secure each vessel was the first

mortgage from AMCV’s subsidiary on the vessel itself.



On their own, only one of the AMCV subsidiaries would have met all of the qualification

requirements for a loan guarantee. By modifying the financial requirements for each of

AMCV’s consecutive loans, MARAD approved guarantees beyond AMCV’s ability to

service the debts, thereby creating a potential default situation—one that could not be

cured with collateral. One practice that MARAD did employ effectively to limit losses

was the use of incremental payments to control the disbursement of loan proceeds. This

allowed MARAD to release funds to the borrower incrementally as construction on the

project progressed, rather than releasing the entire loan proceeds up front.

                                                                                       16
Better monitoring of the shipbuilding and financial operations of the AMCV subsidiaries

would likely have alerted MARAD to AMCV’s growing financial problems, allowing it

to take action prior to the defaults. With the guarantee approval for the Columbia Queen,

MARAD allowed AMCV’s annual debt service to increase by $3 million even though the

company’s financial statements indicated a net loss for the previous year of over

$10 million. AMCV’s cumulative debt service was estimated to be $12 million every

6 months, yet no part of the approval package indicates MARAD reviewed the impact of

this growing debt service on AMCV’s ability to guarantee or pay its subsidiaries’ debts.



MARAD’s loan guarantees with the AMCV subsidiaries had no established agreements,

protocols, or requirements on how to secure and maintain the vessels after default. The

loan guarantees did not specify which party in the guarantee security agreement was

responsible for specific actions and the timeframes in which protective actions needed to

be taken. Security of the onboard inventory from theft and pilferage was minimal for all

the vessels MARAD acquired through the AMCV default. It was only after our audit

inquiries that MARAD took action to ensure the security and the manner of laying-up the

vessels.



Mr. Chairman, this concludes my prepared statement. I would be happy to answer any

questions you may have.



                                                                                       17
 ATTACHMENT: Main Document Charts and Tables in Screen Reader-friendly format


Figure 1. MARAD’s Title XI Portfolio ($ in millions)

Guarantees to AMCV                                                                  $368
Commitments to AMCV                                                                 $895
Other Commitments                                                                   $916
Other Guarantees                                                                   $2,772


Figure 2. AMCV Financial Events

Date Stock Price        Date Stock Price         Date Stock Price     Date Stock Price
Sep-97 $17.50           Dec-98 $16.00           Mar-00  $24.88       Jun-01   $3.50
Dec-97 $18.75           Dec-98 $16.25           Mar-00  $24.88       Jun-01   $3.50
Dec-97 $17.75           Dec-98 $17.63           Mar-00  $25.19       Sep-01   $2.00
Dec-97 $17.13           Mar-99 $21.00           Jun-00  $19.13       Sep-01   $2.03
Dec-97 $17.19           Mar-99 $19.88           Jun-00  $20.00       Sep-01   $0.91
Dec-97 $17.75           Mar-99 $19.00           Jun-00  $19.13       Sep-01   $1.36
Mar-98 $21.25           Mar-99 $19.00           Jun-00  $20.63       Oct-01   $0.45
Mar-98 $22.25           Mar-99 $19.00           Sep-00  $16.88       Oct-01   $0.45
Mar-98 $22.38           Jun-99 $19.88           Sep-00  $16.44       Dec-01   $0.05
Mar-98 $21.88           Jun-99 $20.63           Sep-00  $16.06       Dec-01   $0.02
Mar-98 $22.75           Jun-99 $21.88           Sep-00  $14.63       Dec-01   $0.02
Jun-98 $16.81           Jun-99 $24.88           Dec-00  $12.94       Dec-01   $0.02
Jun-98 $16.50           Sep-99 $22.00           Dec-00  $12.00       Dec-01   $0.03
Jun-98 $15.88           Sep-99 $23.06           Dec-00  $11.56       Mar-02   $0.02
Jun-98 $15.38           Sep-99 $22.19           Dec-00  $14.00       Mar-02   $0.00
Jun-98 $14.50           Sep-99 $22.00           Mar-01  $12.25       Mar-02   $0.02
Sep-98 $13.25           Dec-99 $29.06           Mar-01  $10.81       Mar-02   $0.02
Sep-98 $12.75           Dec-99 $34.19           Mar-01  $10.50       Jun-02   $0.00
Sep-98 $14.88           Dec-99 $34.75           Mar-01  $12.50       Jun-02   $0.00
Sep-98 $15.00           Dec-99 $35.00           Jun-01   $3.66       Jun-02   $0.00
Dec-98 $16.63           Mar-00 $25.50           Jun-01   $3.70       Jun-02   $0.00

Note:   In December 1997, AMCV's Net Income was $2.43 million.
Note:   In December 1998, AMCV's Net Income was $157,000.
Note:   In April 1999, Project America I & II, Cost: $1.2 billion.
Note:   In December 1999, AMCV's Net Income was -$1.75 million.
Note:   In March 2000, Cape Light Vessels, Cost: $89.5 million.
Note:   In October 2000, MS Patriot, Cost: $114.5 million.
Note:   In December 2000, AMCV's Net Income was -$10.1 million.
Note:   In May 2001, Columbia Queen, Cost: $42.1 million.
Note:   In September 2001, attacks of September 11.
Note:   In October 2001, AMCV files Chapter 11.
Note:   In November 2001, Project America sold for $2 million.
